<html>
<title> - RUSSIA'S COUNTERPRODUCTIVE COUNTERTERRORISM</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


              RUSSIA'S COUNTERPRODUCTIVE COUNTERTERRORISM

=======================================================================

                                HEARING

                              BEFORE THE

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 2019

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 116-1-2]
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                       Available via www.csce.gov


                 
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-951PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f0809fb09385838498959c80de939f9dde">[email&#160;protected]</a>        


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

    
              HOUSE				SENATE
              
ALCEE L.HASTINGS, Florida       	ROGER WICKER, Mississippi,
          Co-Chairman			  Chairman
JOE WILSON, South Carolina		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
EMANUEL CLEAVER II, Missouri		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
BRIAN FITZPATRICK, Pennsylvania		JEANNE SHAHEEN, New Hampshire
RICHARD HUDSON, North Carolina		THOM TILLIS, North Carolina
GWEN MOORE, Wisconsin		        TOM UDALL, New Mexico
MARC VEASEY, Texas			SHELDON WHITEHOUSE, Rhode Island                   
          
                  Executive Branch Commissioners
               
               
                    DEPARTMENT OF STATE
                   DEPARTMENT OF DEFENSE
                  DEPARTMENT OF COMMERCE
                            [II]  


                             
                       RUSSIA'S COUNTERPRODUCTIVE
                            COUNTERTERRORISM

                              ----------                              

                             June 12, 2019
                             COMMISSIONERS

                                                                   Page
Hon. Richard Hudson, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     1

Hon. Cory Gardner, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     3

Hon. Robert B. Aderholt, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     9

Hon. Brian Fitzpatrick, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    16

                               WITNESSES

Dr. Mariya Y. Omelicheva, Professor of Strategy at the United 
  States National War College, National Defense University.......     3

Rachel Denber, Deputy Director, Europe and Central Asia Division, 
  Human Rights Watch.............................................     5

Dr. Michael Carpenter, Senior Director, Penn Biden Center for 
  Diplomacy and Global Engagement................................     8

                                APPENDIX

Prepared statement of Hon. Richard Hudson........................    26

Prepared statement of Hon. Benjamin L. Cardin....................    28
Prepared statement of Dr. Mariya Y. Omelicheva...................    30

Prepared statement of Rachel Denber..............................    39

Prepared statement of Dr. Michael Carpenter......................    49

 
              RUSSIA'S COUNTERPRODUCTIVE COUNTERTERRORISM

                              ----------                              


                             June 12, 2019

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 10:30 a.m. in Room 2255, Rayburn 
House Office Building, Washington, DC, Hon. Richard Hudson, 
Commissioner, Commission on Security and Cooperation in Europe, 

presiding.

    Commissioners present:  Hon. Richard Hudson, Commissioner, 
Commission on Security and Cooperation in Europe; Hon. Cory 
Gardner, Commissioner, Commission on Security and Cooperation 
in Europe; Hon. Robert B. Aderholt, Commissioner, Commission on 
Security and Cooperation in Europe; and Hon. Brian Fitzpatrick, 
Commissioner, Commission on Security and Cooperation in Europe.

    Witnesses present:  Dr. Mariya Y. Omelicheva, Professor of 
Strategy at the United States National War College, National 
Defense University; Rachel Denber, Deputy Director, Europe and 
Central Asia Division, Human Rights Watch; and Dr. Michael 
Carpenter, Senior Director, Penn Biden Center for Diplomacy and 
Global Engagement.

 HON. RICHARD HUDSON, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hudson. Okay. On behalf of Chairman Alcee Hastings and 
Co-Chairman Roger Wicker, I'd like to call this hearing of the 
U.S. Helsinki Commission to order. [Sounds gavel.] Let me thank 
our distinguished panel who have all agreed to join us to offer 
their expertise and help inform our work. I want to introduce 
them in a moment, but before I do, I'll offer a few of my 
thoughts on this topic.
    We convene this hearing to examine the Kremlin's 
counterterrorism policies and practices. We want to better 
understand what those practices are, how they developed over 
time, whether they're effective, and to what extent they 
dovetail, or not, with U.S. interests. I want to offer a couple 
of illustrations of why it is so important that we maintain a 
clear sense of what Russian counterterrorism practices do and 
do not offer. The first reason is that Russia seeks to claim 
the mantle of leadership on this issue internationally.
    I'd like to quote the worldwide threat assessment of the 
U.S. intelligence community provided to Congress on January 
29th of this year. That document includes the following 
passage: China and Russia are expanding cooperation with each 
other and through international bodies to shape global rules 
and standards to their benefit and present a counterweight to 
the United States and other Western countries. Russia is 
working to consolidate the U.N.'s counterterrorism structures 
under the U.N. undersecretary general for counterterrorism, who 
is a Russian. Both countries probably will use the U.N. as a 
platform to emphasize sovereignty narratives that reflect their 
interest and redirect discussions away from human rights, 
democracy, and good governance.
    And so I would ask the panelists, should we be comfortable 
with Russian leadership in this area? Does the Kremlin have so-
called best practices that they can share?
    Second reason we should care about Russia's 
counterterrorism practices is that Russia's actions in this 
space have impact far beyond Russia's borders. As regional 
experts recently said at a Helsinki Commission briefing, 
Russia's significant influence in Central Asia can be deeply 
problematic, through cooperation on repressive measures between 
security services or by the propagation of disinformation. In 
addition, as one panelist put it, Russia--this is quote--``is a 
particularly nefarious influence within the sphere of religious 
affairs across the region,'' end quote, by painting peaceful 
religious groups with the label of, quote/unquote, 
``extremism,'' and repressing them ruthlessly, potentially 
furthering radicalization in the process.
    I'm grateful to the panelists who are with us today, and 
I'd like to introduce them now. We'll first hear from Dr. 
Mariya Omelicheva--is that correct?--professor of strategy at 
the United States National War College at the National Defense 
University. Dr. Omelicheva received her Ph.D. from Purdue 
University, and also holds a J.D. in international law from 
Moscow National Law Academy. She is the author of numerous 
well-received research articles and volumes related to our 
history today.
    Next we'll hear from Rachel Denber, deputy director of the 
Europe and Central Asia Division at Human Rights Watch. Ms. 
Denber previously directed the Human Rights Watch's Moscow 
office and has authored reports on a wide range of human rights 
issues throughout the region. Thank you for being with us in 
Washington for this hearing.
    Finally we'll hear from Dr. Michael Carpenter, senior 
director, Penn Biden Center for Diplomacy and Global 
Engagement. Dr. Carpenter has worked these issues as a senior 
official in the prior administration, as former U.S. deputy 
assistant secretary of defense for Russia, and as a former 
National Security Council director for Russia. This is not Dr. 
Carpenter's first appearance before a Helsinki Commission, and 
I suspect given the quality of his contributions, this will not 
be the last time we call on his expertise.
    So thank you all for being here.
    And finally, I would like to thank Chairman Hastings for 
allowing me the opportunity to convene this hearing on behalf 
of the commission. As a member of the United States Helsinki 
Commission, I focus my engagement in a number of areas, 
including combating religious persecution and anti-Semitism, 
preventing human trafficking, and promoting economic 
cooperation and free speech. As part of my role as a Helsinki 
Commissioner, I'm regularly called upon to represent the United 
States at the OSCE Parliamentary Assembly, which facilitates 
inter-Parliamentary dialog among the 57 participating States. 
This assembly is a valuable forum where my congressional 
colleagues and our counterparts from countries ranging from 
Canada to Russia get together to have frank discussions about 
the issues of the day. And we try to find common solutions that 
benefit all of our citizens.
    In recent years I've been really pleased to see this 
assembly paying increased attention to the issue of tackling 
terrorism. In July 2017, the assembly created the ad hoc 
Committee on Counterterrorism. As vice chair of that committee, 
I'm in regular dialog with colleagues, including from Russia, 
on the very questions we'll be examining today. So I'm 
particularly grateful for the information that we'll receive 
from our panelists.
    Now, I see my colleague, Senator Cory Gardner from the 
great State of Colorado, has joined us. Would you be interested 
in giving an opening statement?

  HON. CORY GARDNER, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Gardner. Thank you, Chairman Hudson, for the chance to 
be here to share with the witnesses this conversation and the 
important work that the Helsinki Commission continues to do.
    I've introduced legislation, a number of bills, to increase 
pressure on Russia, responses, considerations that we have 
made, and how they respond to terrorism within Russia without 
the region. So I look forward very much to this hearing. And I 
thank Chairman Hastings as well, and appreciate the witnesses' 
time, testimony, and commitment to this issue.
    Mr. Hudson. Thank you, Senator. We appreciate you being 
here, making the trek all the way across.
    So at this point we'd love to hear from our panelists. Dr. 
Omelicheva, you have the floor.

 DR. MARIYA Y. OMELICHEVA, PROFESSOR OF STRATEGY AT THE UNITED 
    STATES NATIONAL WAR COLLEGE, NATIONAL DEFENSE UNIVERSITY

    Dr. Omelicheva. Okay. Thank you so much for your kind 
introduction and, of course, inviting me to testify here, 
Congressman Hudson. You already know that in the past 20 years 
or so fighting terrorism has become the top priority for the 
Russian Government. And it is understandably so because over 
those two decades the Russian authorities have been fighting 
Islamist insurgency and terrorism, mostly originating from the 
tumultuous North Caucasus--Chechnya, Ingushetia, Dagestan, and 
a number of other subjects of the Russian Federation. And since 
recently, the Russian Government has been grappling with the 
threats posed by international jihadist groups as well.
    I do want to acknowledge the sheer complexity and magnitude 
of the challenges that Moscow faces. But I also contend that, 
overall, Russia's counterterrorism policy, as you already 
mentioned in your introductory comments, has been both 
deficient and counterproductive. And I believe that two trends 
in particular have contributed to these deficiencies.
    One trend has to do with the fact that Russia has always 
emphasized punitive counterterrorism measures at the expense of 
kind of broader preventive socioeconomic approaches targeting 
the root causes of violent radicalization and terrorism. 
Whether domestically in North Caucasus, or regionally in 
Central Asia, or internationally in Syria or elsewhere, Russia 
has used kind of that approach that was singularly focused on 
the use of military force or security services operations. And 
those have been counterproductive.
    In North Caucasus, for example, the brutality of those 
measures transformed what used to be localized struggle into 
the region-wide religious war. In Central Asia, as another 
example, the singular focus on military responses to 
counterterrorism also diverted attention of these governments 
from the root causes of terrorism. And I'm pretty sure my 
colleague, Dr. Carpenter, will talk today about Russia's 
efforts--counterterrorism efforts in Syria, where Russia's 
backing for the authoritarian regime of Bashar al-Assad and its 
indiscriminate airstrikes have also contributed to the 
radicalization of the Syrian population.
    And the second trend that I would like to emphasize in my 
testimony that also, in my view, explains deficiencies and 
counter-productiveness of Russia's counterterrorism policy has 
to do with the fact that the Kremlin instrumentalized 
counterterrorism, meaning that it has deployed counterterrorism 
as a tactic for accomplishing a variety of auxiliary benefits 
expedient to the government--usually geopolitical purposes 
which have been at counter-purpose with the very intent of 
counterterrorism.
    So, for example, domestically, Vladimir Putin has used, you 
know, fear of terrorism and its ability to restore order and 
bring stability to Russia as sort of a part of his legitimacy 
narrative. In Central Asia, Russia has used the banner of 
counterterrorism to reassert its influence in that region. And 
of course, internationally, Russia's high-profile 
counterterrorism efforts have helped Moscow to establish itself 
as a much more prominent global player, which has lacked the 
resources, the assets to play such a role. And it has also used 
this opportunity to counteract the United States' efforts 
worldwide.
    So Russia has used United Nations platforms, including the 
newly created U.N. Counterterrorism Office, to shape global 
counterterrorism agenda. And there are risks associated with 
that, including these kinds of efforts may compel the United 
Nations to take a much tougher line on fighting terrorism while 
downplaying human rights protections. These efforts can also 
divert global efforts from measures aiming at countering 
violent extremisms [CVE] and eroding internet freedoms, because 
for Russia CVE erodes the very essence of counterterrorism. 
Russia is fearful of engaging with civil society groups, which 
are believed to be the harbingers of Western influence. So it 
is really focusing on kind of this harder counterterrorism 
responses domestically and worldwide.
    So the two primary conclusions that follow from my recent 
testimony is that Russia's counterterrorism policy raises many 
concerns about its viability as a partner in counterterrorism. 
Russia's political goals and associated measures unrelated to 
the fight against terrorism have complicated the overall 
efforts to fight terrorism worldwide. And let me say just a 
couple of words about what I see the United States can do in 
these circumstances.
    I think the United States can do more, either directly or 
through regional and global institutions like OSCE and United 
Nations. So it should continue supporting these global and 
regional institutions, promoting CVE measures, and work with 
the United Nations Counterterrorism Office directly or through 
the OSCE. And this engagement should seek building synergies 
between the OSCE and U.N. Counterterrorism Office, with the 
goal of promoting rule of law compliance responses to terrorism 
and CVE, while engaging civil society and protecting individual 
freedoms.
    I also think that United States should continue providing 
counterterrorism assistance to the many countries where Russia 
remains to be involved, but couple this assistance with 
increased funding for CVE and civil society building.
    So I'll stop here.
    Mr. Hudson. Ms. Denber, if you would.

  MS. RACHEL DENBER, DEPUTY DIRECTOR, EUROPE AND CENTRAL ASIA 
                  DIVISION, HUMAN RIGHTS WATCH

    Ms. Denber. Thank you, Chairman Hudson. Thank you for 
inviting me to give testimony today. And let me express Human 
Rights Watch's great appreciation for the Helsinki Commission, 
which is a beacon of hope for many people in our region, and a 
great ally of human rights causes.
    So my remarks today focus on Russia's counterextremism and 
counterterrorism policies and practices. My written testimony 
provides a lot of detail about Russian laws, their evolutions, 
both the counterterrorism/counterextremism law itself, the 
criminal code, administrative code. And I also provide some 
examples of how these laws have been selectively to persecute 
people who are inconvenient to the Kremlin, to persecute people 
who are inconvenient to local authorities, and to persecute 
particular groups.
    So I will only summarize that here. I think, though, I 
would also like to point out that these laws and practices are 
deeply problematic. The laws themselves are quite--they're 
vague, they're overly broad, their definitions are overly 
broad. But I also want to emphasize that it's really important 
to note that, similar to what Dr. Omelicheva noted, that 
Russian authorities have also used these laws for legitimate 
purposes. So there is and has been a problem with extremist 
violence in Russia, hate violence in Russia. And the Russian 
Government has used these laws to contend with racist violence, 
anti-migrant violence, far right-wing hate violence. So I think 
it's important to keep that in mind.
    I think an important question is to ask why it is that the 
Russian authorities have adopted and selectively enforced these 
really vague and elastic anti-extremism norms? And I think that 
there's several answers. But I think maybe it's best to leave 
that to my written testimony. You can scroll through that. I 
think that the main impact of the restrictive laws and their 
selective enforcement is that many Russians now are 
increasingly unsure about what the threshold is of acceptable 
speech. And at the same time, are increasingly anxious about 
the consequences of speaking up--speaking out, especially on 
online and mobile applications.
    Let me just move right now to what the problem is with 
Russia's counterextremism laws and practices. And I also 
strongly recommend the commission to become familiar with the 
work of the SOVA Center in Russia. It's a think tank that 
focuses on these issues. And they're very good.
    So the main problem with Russia's counterextremism--
approach to counterextremism/counterterrorism, is that the 
definitions are quite broad. The law bans any public calls for 
promoting--for extremism, or extremist violence. It involves a 
whole range of acts, you know, ranging from violent overthrow 
of the government, committing terrorist violence, insulting the 
national dignity of others, or promoting the superiority of a 
particular race. It includes extremist--concepts like extremist 
materials, extremist organizations, banned extremist 
organizations, banned public communications, mass distribution, 
things like that.
    So you have the basic law, that has become more harsh over 
the years, and you also have the criminal code which 
criminalizes these actions. Just to pick up on what Dr. 
Omelicheva pointed out, it's--this is a very punitive approach. 
The criminal code has become harsher with regard to these laws. 
So that now, for example, if you are declared a member of the 
Islamist organization Hizb ut-Tahrir, or a leader of that 
organization--which is not a terrorist organization--it can get 
you a 20-year sentence, for just membership or affiliation, not 
for anything else. Not for any violent act.
    The counterterrorism/counterextremism laws are used as a 
tool not only to legitimately address extremist violence, but 
also to crack down on inconvenient people. It's one of many 
tools that the Kremlin can use. And in recent years, since 
2012, since President Putin returned to the Kremlin, and then 
especially since the invasion--since the events in eastern 
Ukraine and the occupation of Crimea--it has used these laws to 
crack down on dissent about Russia's actions in eastern 
Ukraine.
    These laws also do things like--you know, the newer laws do 
things like--under the rubric of anti-extremism and 
counterterrorism--do things like increase--penalize--or, 
criminal insulting Russia's military honor, criminalize certain 
discussions about World War II, under the rubric of 
justification of Nazism. They do things like require internet 
companies to store data on Russian citizens in Russian--on 
Russian services, in Russian territory. So they're really 
trying to get control over the internet in the name of fighting 
extremism. And there's been a whole flurry of laws in this 
regard. In the years since the law was adopted, there's only 
been one kind of softening of the counterextremism law, and you 
can read about that in my written testimony.
    So a couple of examples of, I think, the really more really 
concerning examples of how these laws are abused--I think you 
mentioned that one of your main interests is religious freedom 
and how do these laws interact with religious freedom. Well, as 
you--I'm sure the commission is aware, because you've spoken 
out on it a number of times--it was as an extremist 
organization that the Jehovah's Witness organization was banned 
in Russia. It was banned as an extremist organization by the 
Supreme Court in 2017.
    And that is not an idle definition. It's not one of those 
things that, oh, well, they adopted it, the Supreme Court made 
that decision, and no one pays attention to it. A lot of people 
are paying a lot of attention to it. Right now there are 200 
people who are Jehovah's Witnesses who are facing criminal 
prosecution for continuing the activities of an extremist 
organization. Thirty-five of them are in jail awaiting trial. 
One has already been convicted and is currently serving a 6-
year prison sentence. So this is not a--this is not an idle 
definition.
    I think the other thing--the other thing--the other really 
key way that these laws have been used against inconvenient--
or, you know, to silence criticism, has been the way they've 
been used in Crimea against Crimean Tatars. Our organization 
has documented how 49 people right now are facing criminal 
charges, and some have been convicted, again, for membership in 
this organization called Hizb ut-Tahrir. It's not an 
organization I would endorse--what it promotes is something 
that's anathema to human rights ideals. But it is not a 
terrorist organization. And yet, these men--these 49 people are 
facing very big prison sentences, because--and are targeted 
especially because the Kremlin, I think, would like to tarnish, 
to demonize people in Crimea who oppose--like Crimean Tatars--
who oppose Russia's occupation of Crimea. To tarnish them as 
terrorists. It also uses the label of extremist and terrorist 
to marginalize and demonize other people who oppose the 
occupation as well.
    And there are just two more examples, if I have more time. 
Two more examples of how these laws have been used 
illegitimately. I would ask you to think about the case of 
Svetlana Prokopyeva, who is a journalist from Pskov who did a 
radio discussion about an act of terrorism that took place in a 
Russian city. And she was also, you know, talking about 
Russia's abuse of counterterrorism policies. And the 
authorities are using that discussion to justify--to ground 
charges against her for justifying terrorism. And she faces a 
7-year prison sentence. So it's a very convenient tool for 
local officials to try to silence and intimidate inconvenient 
voices.
    There are many other examples in my written testimony. I 
think if I would leave you with one thought, it would be--a 
couple of thoughts, actually. These laws, they do migrate to 
other to Central Asian countries in the OSCE region. I would 
love to talk more about that in question and answer. I think 
it's also a two-way migration. I think that if you look at the 
history of it, I think some of the harshest practices that 
we've seen since the breakup of the Soviet Union was 
Uzbekistan's approach to counterterrorism and counterextremism 
in the late 1990s. I think these countries take the Russian 
template law on extremism and apply, in fact, much more 
harshly--or, very harshly.
    If there's one recommendation I would have, it would be 
that for U.S. policymakers to be aware of Russia's overly broad 
definition of extremism and the abuses that stem from this--
from their enforcement, and the ripple effect that these laws 
have in the region. And I think that any potential 
collaboration the U.S. enters into on counterextremism and 
counterterrorism should not replicate or unwittingly support or 
promote the abusive aspects of these laws and practices.
    Thank you very much.
    Mr. Hudson. Thank you.
    Dr. Carpenter, you have the floor.

 DR. MICHAEL CARPENTER, SENIOR DIRECTOR, PENN BIDEN CENTER FOR 
                DIPLOMACY AND GLOBAL ENGAGEMENT

    Dr. Carpenter. Chairman Hudson, Congressman Aderholt, thank 
you for the opportunity to testify before you today on Russia's 
approach to counterterrorism and its implications for U.S. 
national security.
    Every so often, there are politicians or policymakers who 
call on the United States to cooperate more closely with Russia 
to fight terrorism. On the surface, it may not even sound far-
fetched for two big powers, both afflicted by the threat of 
terrorism, to cooperate more closely on a common threat, even 
when they disagree on other matters. But active cooperation 
with Russia--and by active cooperation I mean any sort of joint 
operations or sensitive intelligence sharing--would run 
contrary to both our values and our national security 
interests. Let me explain why.
    The first reason is that Russia's chief geopolitical 
objectives are to weaken the United States, fragment the 
transatlantic community, and delegitimize international norms 
of human rights. Given the opportunity, the Kremlin will 
undermine the United States and the NATO alliance. Russia's 
leadership does not think in win-win terms, even when we do. 
Consider Russia's intervention in Syria. Though Russia claimed 
to be fighting ISIS, its real goal was to prop up the Assad 
regime and diminish U.S. influence in the region by 
strengthening its own role and that of its key partners on the 
ground--Hezbollah and Iran.
    To position itself as the key power broker and 
indispensable nation for solving the conflict, Russia benefits 
from uncontrolled migration and the flow of extremists into 
Europe. This may seem highly cynical, but Russia has no 
interest in any sort of political transition to stabilize 
Syria. Moscow will be happy, of course, to host dozens of 
international conferences, and will periodically suggest that a 
solution is within reach. But at the end of the day, its 
interests are best served when Iran, Hezbollah and Assad are in 
power to make mischief in the region, because that's when 
Russia's influence with the Europeans, with Israel, and the 
Gulf States is at its peak.
    Second, let's consider Russia's actual CT strategy. This 
strategy, as Dr. Omelicheva has just mentioned, is almost 
entirely based on physically liquidating extremists. Russian 
authorities do not try to win hearts and minds or engage in 
efforts at deradicalization or social reintegration. Russian 
security forces in the North Caucasus frequently apply the 
principle of collective retribution--often imprisoning, 
threatening, and sometimes even killing relatives of suspected 
militants. While sometimes effective at the tactical level, 
strategically this approach only engenders a perpetual cycle of 
radicalization.
    Russian counterterrorism operations also pay little regard 
to civilian or, quote/unquote, ``collateral'' casualties. The 
botched raids of the Dubrovka Theater in Moscow or the tragic 
attempt to free hostages in Beslan demonstrate a shocking 
disregard for human life. Even worse, as my colleague Rachel 
Denber has noted, Russian authorities often use the pretext of 
fighting extremism to crackdown on dissidents. For example, a 
single mother was recently imprisoned on extremism charges 
because she had posted comments critical of Russia's annexation 
of Crimea on her social media feed.
    Third, Russia sponsors terrorist acts in foreign countries. 
In Ukraine, Russia's intelligence services have carried out car 
bombings in government-controlled territory to assassinate 
Ukrainian military intelligence officers. One such bombing took 
place in downtown Kyiv on a crowded street. The Ukrainian 
Security Service, or SBU, has also accused Russia of bombing 
cafes and other public venues in Odessa, Kharkiv, and Kherson. 
And of course, we must not forget that Russia provided the 
missiles, the launcher, the software, the training, and likely 
the triggerman to shoot down Malaysia Airlines Flight 17, 
killing all 298 people on board. I don't see how one can 
characterize these actions as anything other than state-
sponsored terrorism.
    In Afghanistan, Russia has provided weapons and night 
vision equipment to the Taliban to undermine U.S. and NATO 
interests. In Europe, Russia has supported neo-Nazi hate groups 
in Hungary, and financially supported violent protests in 
Greece and North Macedonia. In the United States, as has been 
revealed in the media, Russia has spread false conspiracy 
theories to radicalize Americans against their immigrant 
neighbors and coworkers. And in the United Kingdom, Russian 
intelligence officers brazenly tried to poison a former Russian 
spy using a large dose of a deadly chemical toxin.
    To conclude, Russia's actions to undermine the United 
States and its allies, and its direct sponsorship and 
cooperation with groups that conduct terror, should preclude 
any active efforts at counterterrorism cooperation.
    Thank you. I look forward to your questions.
    Mr. Hudson. Thank you all for that testimony.
    And before I ask my questions, I'm going to call on my 
colleague from Alabama, Mr. Aderholt, for any questions you 
might have.

 HON. ROBERT B. ADERHOLT, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Aderholt. Thank you. It's good to be here. Sorry I was 
a little late. Sort of--as you know, the schedule on Capitol 
Hill is very fluid. So it's--we go from one meeting to the 
other. But thanks for being here, and to discuss this issue on 
the issue regarding Russia and its implications.
    Dr. Carpenter, you mentioned about state-sponsored 
terrorism for Russia--in Russia. And you know, I'm thinking 
back to the downing of the Malaysian Airlines flight over 
Ukraine in 2014, which 283 people were on board. Do you 
consider that state-sponsored terrorism?
    Dr. Carpenter. I do. I don't see how there's any other way 
to look at that incident, where Russia provided all of the--not 
just the hardware, which was brought in and then 
surreptitiously in the cover of night taken back into the 
Russian Federation. So not just the hardware, but then also 
providing the personnel and the training to be able to operate 
that relatively sophisticated system, knowing there were 
civilian aircraft in the skies at that time, and having 
previously shot down a Ukrainian military aircraft. I don't see 
how you can look at that as anything other than state-sponsored 
terrorism.
    Mr. Aderholt. And how do you consider the impact of such a 
designation?
    Dr. Carpenter. Well, Senator Gardner has--who was just 
here--has introduced legislation on this and has called for 
designating Russia formally as a state sponsor of terror. I 
think we need to look carefully at that. It might preclude 
certain areas and certain areas where we might be able to work 
with Russia and other states. But as a principle, just calling 
actions for what they are, I think there's no other way than to 
label those acts, and others in Ukraine and other countries, 
including the attempted assassination of Sergei Skripal in 
Salisbury, as anything but attempts to spread terror.
    Mr. Aderholt. And, Mrs. Denber, let me ask--Denber, let me 
ask you this. The--some have suggested there is the strong 
connection between the Russian Orthodox Church and the Russian 
State has actually end up being--alienating Russia's more--
other traditional faiths, religious groups, including Islam. 
How has Russia's Muslim population been affected by 
counterterrorism or this counterextremism policy?
    Ms. Denber. Thank you for the question, Mr. Aderholt.
    So I think that there is a very--first, there is a very 
strong connection between the Russian Orthodox Church and the 
Kremlin. It's--I think it's a mutually--it's a relationship of 
mutual dependence. I think that we should avoid talking about 
Muslims in Russia as a monochromatic mass. I think there are 
many different kinds of Muslims in Russia, in different 
regions, and who have different concerns.
    I think that what alienates--I think that there are many 
Muslims in Russia today who support these counterextremism 
policies that basically taint groups that are non-violent--
taint religious groups that are non-violent--policies that 
taint them as violent, as terrorists or as extremists.
    So I think that some people support those, but I think that 
there are also large numbers of Muslims in Russia who are very 
alienated by these policies. There are hundreds of people today 
who are either in prison or facing pretty stiff prison 
sentences, Muslims mostly, for their membership in this 
organization Hizb ut-Tahrir which is, as I said, anathema to 
human rights norms, but not a terrorist organization.
    And we need to remember that each one of those people, you 
know, has a family, an extended family. And for each time 
someone goes to jail for membership in a group like that, it 
affects the whole--it has a ripple effect through the whole 
family. It's not the only Muslim group that's been targeted. 
There are also there--there are other--for example, the 
followers of Said Nursi, who was a Turkish--a Turkish 
theologian--you know, has a significant following among certain 
Muslims in Russia. That--the Russian Government has banned as 
extremists an organization that they purport exists called 
Nurcular. We can--you know, I think it's a legitimate question 
whether such an organization even does exist, but I think 
there's no question as to the peaceful nature and non-extremist 
nature of this group. It's ridiculous that it's been--that it's 
been tainted as--or, found to be extremist. And every single 
person who is being under criminal prosecution right now for 
involvement in that grouping, why, they are definitely being--
definitely alienated, and marginalized by these practices.
    Mr. Aderholt. And this doesn't apply just to Muslims, but 
also, like, other traditional Christian faiths in Russia, 
right?
    Ms. Denber. So the--so far, the only group--the only 
Christian group--Christian faith that's been branded as 
extremist, or found by a court to be extremist, is the 
Jehovah's Witnesses. They were banned as extremists by the 
Supreme Court in 2017. They were banned by local courts before 
that, local organizations were. I don't know of any other 
Christian religious organization that's been banned as 
extremists, but I think if I were a Baptist or a Pentecostalist 
I would start to get worried.
    Mr. Aderholt. Mmm hmm. And you mentioned about some of the 
other former Soviet Republics that are impacted. Could you just 
touch on that briefly?
    Ms. Denber. Sure. So Kazakhstan, Kyrgyzstan, Tajikistan, 
Uzbekistan, Belarus--all these countries have counter--have an 
approach to counterextremism that is very similar to Russia's. 
So they have the same broad definition of what extremism is, 
right?
    So it's a whole range of activities that is not--that 
doesn't necessarily have anything to do with violence, right? 
So it's brochures, or just meeting, or just getting together. 
Or it's, you know, the promotion of some--you know, some vague 
definition of ideological supremacy over somebody else. It's 
very broad definitions.
    And that's common to all of these--you know, the approach 
in all of these countries. And in some of the countries, it's 
quite harsh. So Tajikistan, for example--I'm not--I should also 
preface my remarks by saying I'm not an expert on all Central 
Asian countries, but I'm going to--I can still list out what 
some of these practices are. So in Tajikistan, for example, you 
know, you have--you know, wearing a beard could be enough to 
get--to get you tagged as an extremist. Or, you know, there are 
very harsh laws limiting religion, that are motivated by a 
desire to--or a determination to limit extremism.
    In Kyrgyzstan, until very recently simple possession of a 
leaflet that was deemed--a leaflet, a brochure, or a video on 
your phone that the police consider to be extremist could land 
you a prison sentence. And there were dozens and dozens of 
people who went to jail because of a leaflet or because of a 
video on their phone. Now, Kyrgyzstan recently repealed that 
part of the criminal code, so now you have to have--possession 
can get you a prison sentence, but only with an intent to--
clearly an intent to distribute it massively, which is still 
very, very problematic. But there are dozens and dozens of 
people who went to jail just for that. And many others who were 
very vulnerable to that charge.
    Kazakhstan has also very harsh and vague counterterrorism/
counterextremism laws and practices. And I very strongly 
encourage the commission to get familiar with a report that 
just came out from the U.N. Special Rapporteur on Human Rights 
and Counterterrorism, who just finished a visit to Kazakhstan. 
She, and also Human Rights Watch, have documented extensively 
how the Kazakh Government uses this concept of extremism to go 
after civil society activists, to go after journalists, to go 
after labor union leaders. So all over the region.
    Mr. Aderholt. Thank you. Thank you for yielding.
    Mr. Hudson. Absolutely. My pleasure. And welcome our 
commissioner Mr. Fitzpatrick here as well. Appreciate you 
joining us.
    So, Dr. Omelicheva, first question to you would be, how 
does the Kremlin seek to promote itself or its brand of 
counterterrorism around the world? In what ways has it sought 
to promote itself as a leader on counterterrorism in 
international bodies, specifically the U.N. and the OSCE? And 
for what purposes does the Kremlin seek to promote its 
officials and its viewpoints on counterterrorism in these 
international organizations?
    Dr. Omelicheva. Thank you for this question. Thank you for 
the question.
    So Russia is a weaker partner. It doesn't really have the 
assets, the resources to be able to--doesn't have the kind of 
the soft power that United States has around the world. So for 
it to be able to project its influence regionally, and 
especially globally using platforms like the United Nations, it 
usually capitalizes on the vacuum, or any kind of gaps 
particularly left by the United States. So it is no secret that 
the current administration has not been favoring the United 
Nations, and it has withdrawn some support.
    So, for example, the United Nations Counterterrorism 
Office, this new institution that was stood up last year, 
initially the United States pledge $2 million to support this 
agency. And when the chief, the Russian who mentioned, Vladimir 
Voronkov, was appointed as undersecretary general and the head 
of this agency with a very, very broad mandate, and he called 
for the inaugural conference, where he decided to exclude civil 
society groups, nongovernmental groups from at least some of 
the hearings. So the United States withdrew its pledge of 
financial support, and it also lowered the status of the 
representatives that took part in that inaugural conference.
    So that's the situation that provided Russia with an 
opportunity to kind of step and say, hey, I'm pledging $2 
million for 2018, and you know, half a million each year 
thereafter. So Russia has been able to capitalize on these 
kinds of circumstances where the United States would be either 
retrenching, or withdrawing, or kind of limiting its input or 
its interests. And this is where Russia would say, hey, I'm 
willing and able to say to lead, to provide financial support, 
to play this leadership role. And I think this is how it was 
able to really shape, you know, the way the United Nations 
counterterrorism office has been shaped up, what its priorities 
have been.
    And so even though the language of its mandate says that 
the emphasis should be on preventive measures, on CVE, so far 
we've seen, again, most of the efforts aiming at preemptive 
disruption and interdiction of foreign fighters, but not much 
work done on CVE. So, again, I am just drawing these kinds of 
associations without making any conclusions about causation. 
But it seems like Russia has had a way to influence the work of 
this office, either through the chief, the head of this office, 
or through other diplomatic avenues.
    So, you know, it uses the rhetoric of the need for tougher 
counterterrorism responses. And I think it's very, very 
important that there is fear around the world. And fear is a 
very powerful tool when, you know, individuals who fear 
terrorism, fear death, are willing to give up their liberties. 
And they approve of harsher responses. Whatever it takes to 
make us safe and secure. So Russia has been using this 
rhetoric, this discourse, that have resonated very strongly 
with many countries' leadership and peoples around the world.
    So I think we need to be cognizant of the fact that in 
contemporary global context, where we are witnessing lots of 
turmoil, there are, you know, threats to liberal international 
order as we know it, there are many competing frameworks about 
how the world should operate, so this kind of uncertainty and, 
you know, these claims about we need stronger states, we need 
to give more tools to the governments to be able to deal with 
the threats, they're very palpable. You know, they're very 
compelling to many countries and leaderships around the world. 
So that resonance between what Russia says and what, you know, 
other countries may want is also giving Russia that push to 
influence--to be able to influence international agendas.
    And unfortunately, your colleague left, but I would like to 
give another example. So my colleague Dr. Denber mentioned now 
Russia's legal templates have been used for legislative 
purposes in Central Asian republics and in countries which are 
members of the CSTO, Collective Security Treaty Organization. 
Those member states, they also have rosters that are put 
together on the basis of the local courts' decisions about 
which groups they consider to be extremists and terrorists, and 
which individuals they consider to be threats to the regime.
    So, you know, recently Tajikistan banned what used to be a 
political party, Islamic Renaissance Movement. It was branded 
extremists and now terrorist groups. So it travels both ways. 
So they maintain this shared rosters of individuals and groups 
that are regarded as threatening to the regime. And they're 
deemed to be terrorists and extremists, in addition to a 
variety of other areas--like, you know, joint counterterrorism 
drills, war games. So Russia is a major supplier of weapons 
supplies, troops. And so the military and security services 
border security services of these republics. They still learn 
about the ways of conducting those operations through those 
joint exercises from Russia.
    Mr. Hudson. Would any of the other panelists like to answer 
that question, just in terms of Russia's involvement with the 
United Nations, OSCE, other international bodies?
    Dr. Carpenter. Well, I will just chime in to note that 
Russia has abused Interpol and its red notice system 
extensively to go after not just dissidents who are speaking 
out against the Putin regime abroad, Russian dissidents, but 
also international figures like Bill Browder. The notion that 
Russia's applying any kind of rule of law through its 
participation in these multilateral institutions is just folly, 
because they're not. They're abusing the system. Once they gain 
membership in an institution, whether it's the OSCE, some of 
these CT bodies, or more broadly, you know, Wassenaar group on 
conventional arms limitations as well. Russia hollows out these 
institutions, undermines the norms, in order to advance its 
particular interests, which are always those of the 
authoritarian, kleptocratic regime of Vladimir Putin.
    And so when we look at various CT bodies, you know, 
sometimes Russia will play along and indicate that it shares 
the same concerns and values as the rest of the members, but we 
always have to be conscious of the fact that Russia has its own 
motivations. And frequently those rub against the rest of the 
members of those organizations.
    Dr. Omelicheva. Just one more example. I think it's 
important to pay attention to yet another area, where Russia 
has been trying to influence its regional global partners. It's 
in the area of internet censorship. We're heard a lot of 
examples of the most recently 2016 Yarovaya package laws that 
now requires telecom providers and other providers of social 
media access and whatnot to retain all of the data and 
metadata. It has been, you know, playing with the idea of 
cutting Russia's internet off the rest of the world. And so it 
really contrasts with the approach that the OSCE or the United 
States has been advocating for, which is countering extremist 
ideologies with counter messaging on the internet rather than 
using internet censorship.
    And I think this kind of conflict between whether we should 
address ideology with counter-ideology but keep internet free 
versus do censorship of internet is being played out at the 
U.N. as well. So we need to watch and really advocate for not 
allowing the U.N. and its various counterterrorism bodies to 
embrace this idea that censorship is the answer.
    Mr. Hudson. For Mr. Carpenter, you didn't mince words in 
saying that you don't think it's productive for us to cooperate 
with Russia on CT. But in your experience in the past 
administration, could you maybe go a little deeper in what your 
experiences were in working with Russia? And were there some 
benefits? Were we able to gain best practices or was there any 
value in that relationship? And maybe just expand a little bit 
on your point there.
    Dr. Carpenter. Sure. I will say that I do support having 
the U.S. Government provide information on any active terrorist 
threats that would implicate the lives of Russian citizens, 
whether those be civilians, Russian diplomats, or military 
service members. I think morally it's the right thing to do if 
we don't jeopardize sources and methods to provide that 
information. We have done that in the past. We should continue 
to do so. And I'm not opposed to receiving information from 
Russia that they provide voluntarily to U.S. law enforcement 
agencies, but we should be very cautious with that information 
because there are concerns that, for example, Russian 
dissidents could be included under a list of persons suspected 
of being extremists or terrorists. And we would have to scrub 
any kind of information from Russia very carefully with those 
sorts of concerns in mind.
    I will say that I have participated in a number of efforts 
to work collaboratively with Russia on counterterrorism, from 
my office's oversight of the Bilateral Presidential Commission 
in the Obama administration, which included a counterterrorism 
working group, to a more specialized bilateral approach to 
ensuring security and counterterrorism in advance of the Sochi 
Winter Olympics, where I participated and led a National 
Security Council delegation that liaised with Russian Security 
Council members to discuss preparations for Sochi. And then a 
number of other efforts where we quietly discussed exchanging 
information, particularly after the Boston Marathon bombing, 
where we were trying to glean more active sort of exchange of 
data on potential militants and suspected terrorists.
    And I will say, you know, the tone of these interactions 
was always cordial. The Russians approached these 
professionally. They bring professionals to the table to be 
able to discuss the issues. The problem I have is at the end of 
the day none of these efforts ever panned out in terms of 
significant, meaningful exchange of information. Certainly not 
best practices. Russia's opposed to many of the best practices 
that we have been putting forth in terms of countering violent 
extremism, seeking to deradicalize communities through 
socioeconomic integration, so on and so forth. That's not how 
they operate. And so on the best practices front, we really 
achieved nothing.
    On the exchange of information, there was, in fact, an 
active exchange between the U.S. and Russia for a number of 
years in the Obama administration but, again, that comes with 
risks. It comes with risks that, A, the information is not what 
it purports to be--that there are, for example, dissidents 
mixed in in terrorist watch list notifications. And then also 
that some of the data could be--that we could be given reams 
and reams of data for the purposes--which would cause our 
system to be clogged up as analysts had to verify whether in 
fact those were legitimate designations or not.
    In advance of the Sochi discussions, I mean, the United 
States approaches any Olympic Games as the country with the 
most number of athletes, the most sponsors, usually the most 
viewers onsite, as well as in terms of television viewers. And 
so we approach this very seriously and wanted to cooperate as 
much as possible with Russian authorities to ensure that the 
Sochi Olympics came off smoothly, that there were no incidents. 
And obviously that was a huge concern given terrorist activity, 
insurgent activity, very nearby in the North Caucasus.
    And so the Russians knew this. And they entertained us with 
a series of meetings and purported to want to give us 
information and brief us on their security preparations. But in 
fact, what we found at the end of the day was that the 
briefings were always superficial, the information was minimal. 
And when we pressed for more and more information, we were 
essentially told: No, we've got this under control. You know, 
we're not going to give you all that information that you want 
and need. Trust us. And very little in terms of actionable 
intelligence that law enforcement authorities could act on at 
any given time. And so frankly, we were quite blind going into 
the Sochi Olympics, and we had to rely on the Russians to 
provide that security.
    I will say, some of the practices they employed in Sochi 
also gave us enormous concern at the time. For example, there 
was a bombing in Volgograd just before the opening ceremonies 
of the games. And Russia really used that as a pretext to take 
large numbers of militants from the North Caucasus and 
essentially facilitate their travel out of Russia, knowing that 
most of those folks were going to Syria to participate in the 
fight alongside ISIS. And we saw this sort of draining out of 
the North Caucasus prior to the games for understandable, you 
could say, reasons on Moscow's part. But with huge 
apprehensions on our side because of the consequences of this.
    And I think we have yet, in fact, to see those consequences 
now that the ISIS caliphate has been decimated. You know, some 
of those foreign terrorist fighters are returning not just to 
Russia, but to Europe and other places. And it's thanks to that 
fact that they were essentially let go and not screened at the 
time in 2013 and early 2014.
    Mr. Hudson. Very troubling.
    At this point, I'll call on my colleague from Pennsylvania, 
Mr. Fitzpatrick, who brings a broad experience and background 
on this issue. And we look forward to your questions.

 HON. BRIAN FITZPATRICK, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Fitzpatrick. Thank you, Mr. Chairman. Thank you all for 
being here.
    In my--the majority of my time in the FBI was focused on 
international terrorism. We put a lot of emphasis on the 
international enforcement academies that we had throughout--
across the globe. The one in Budapest would have been the one 
that covered Eurasia. We could never get Russia to participate 
much at all. And that's where we had a lot of intelligence 
sharing, information sharing on investigative techniques, best 
practices, and fighting terrorism. We had a model at the FBI 
that we put a lot of investment into as far as having cross-
agency support at the Federal level. Task forces, working with 
our state and local partners, having citizens academies, 
getting the public involved on how they could help. Putting a 
lot of investment in intelligence gathering and information 
sharing, as well as source recruitment.
    We never really had a good sense, since they never really 
cooperated with us, what exactly the Russian model was. How 
many agencies are involved across their government? What is the 
state and local interaction with the national system? How often 
do they engage members of the public? We never really had that 
sense, because they never really did a whole lot with us. So if 
you could just let us know that, or let me know that, that 
would be helpful.
    Dr. Omelicheva. Let me take a stab at this question. So in 
2006, Russia adopted a law titled Law Counteraction to 
Terrorism. And it is still in the force, but it essentially 
established the legal framework for creating kind of the 
institutional infrastructure for intelligence gathering, 
prevention, and then reaction to terrorist attacks. So this law 
provided a foundation for executive decree that established the 
National Counterterrorism Committee, which exists at the 
Federal level. And its task is to coordinate counterterrorism 
efforts of, like, 18 different agencies--Russia's Federal 
security service, FSB, the Ministry of Interior, the Ministry 
of Emergency Situations and a number of others.
    So it has a permanent secretariat. It has a leader. So it 
is kind of the agency that collects all of the information from 
various agencies at the Federal level. And there are republican 
counterterrorism committees that are established in each and 
every subject of the Russian Federation. And the operational 
counterterrorism is carried out through counterterrorism 
headquarters that are kind of nested within this 
counterterrorism structure. So, again, there is a National 
Counterterrorism Committee at the top, there's a vertical 
structure with regional counterterrorism committees established 
in each subject of the confederation. And within them, they 
have counterterrorism headquarters.
    I think they are currently led by a representative of the 
FSB, the security services. So if a situation arises of a 
hostage incident or another terrorist attack, the law allows 
establishing counterterrorism operation situation, which is 
like martial law but does not require approval by the 
Parliament. So once there is counterterrorism operation 
established, it allows the government to deploy a variety of 
very extensive measures of cutting down a variety of individual 
liberties--freedom of movement, freedom of information. It 
allows for the use of the military force. So that's it, in a 
nutshell.
    Mr. Fitzpatrick. Any idea as to why they were so reluctant 
to participate with the international community in programs 
like we had set up specifically to do that, given that 
terrorism is an international fight, and the only way we can 
really address it is through the use of our friend and allies 
to be our eyes and ears across the globe? They were very, very 
hesitant to do that.
    Dr. Omelicheva. I do have an idea. So Russia is reluctant 
to collaborate with the United States because it doesn't 
believe that it is going to be able to collaborate on equal 
terms. So let me take a step back.
    Everyone in Russia--the government, the people--they 
believe that Russia is a great power by virtue of its history, 
cultural heritage, the sheer size, and many, many, many other 
things. This identity of a great power that is inherent in what 
Russia is, entitles it to act in certain ways regionally and 
globally. So Russia has the right and responsibility to do the 
kinds of things that you would expect a great power to do 
internationally.
    And the narrative goes that the only nation that has been 
frustrating and kind of impeding Russia's effort to fully 
realize its potential of a great power has been the United 
States, okay? And so Russians can provide you with lots of 
examples of how we've tried to collaborate with the United 
States, but every time we would be looked upon as a junior 
partner and not taken seriously. So Russia mistrusts the United 
States. It does not believe that the United States, when it 
wants to collaborate, it will come to collaboration from the 
position of strength. And it will do my way or no way, and kind 
of Russia's input or Russia's effort to contribute is going to 
be downplayed.
    And I think--so, you know, so the short answer to your 
question is that fundamental belief, you know, that grievance, 
if you wish, that Russia is entitled to something that it has 
never received whenever it tried to engage in the relations 
with the United States, and that no matter what it does--you 
know, the United--so Russians believe that United States fears 
having Russia as a peer to the United States, so it will do 
everything in its capacity to sort of keep it from actualizing 
its potential.
    So that mistrust and a belief that it cannot play an equal 
role in any kind of collaborative endeavors is probably going 
to continue to prevent the Russians from any kind of meaningful 
collaboration with the United States.
    Dr. Carpenter. I don't disagree with anything that Dr. 
Omelicheva has just said, but I'll be a little bit more blunt. 
As I know you know, Congressman, our clandestine services are 
essentially at war with each other. Russia approaches 
counterterrorism from the vantage of counterintelligence. 
That's why when I traveled to Sochi in 2013 to begin the 
process of discussing security for this Winter Olympics, our 
chief interlocutor was Russia's chief counterintelligence 
official, not their chief counterterrorism official. They treat 
information about the terrorist threat in Russia as secret 
confidential information that they don't want the United States 
or any other foreign power to get access to.
    Similarly, when they want to cooperate with us, it is 
primarily with a view of gaining information on our sources and 
methods and our vulnerabilities. And so they approach this, 
they stack a lot of the delegations that they send to discuss 
counterterrorism with intelligence and counterintelligence 
officials. And while Dr. Omelicheva went through the structure, 
the formal structure through which Russia approaches 
counterterrorism, with the National Counterterrorism Agency 
sort of overseeing the process, they, like we did, also 
reorganized following the Chechen wars in the 1990s to better 
integrate their intelligence.
    But let's be honest--the FSB calls the shots. The FSB is 
the preeminent agency, Putin's former employer and now one of 
the chief instruments that he uses to perpetuate power. And 
they use extremism and CT as an excuse to conduct any number of 
other missions that are not really CT related.
    Mr. Hudson. Thank you. It's fascinating.
    Ms. Denber, I'd like to maybe drill down on the youth 
impact of the lack of CVE and some of the impacts of the 
policies coming out of Moscow. So what are the possible effects 
of the, as we said, worst practices of authoritarian regimes in 
Moscow and Central Asia, specifically on potential ongoing 
radicalization of Central Asian youth?
    Ms. Denber. That's a great question.
    I want to start by saying that there isn't--you know, there 
are many different studies on the causes of radicalization and 
what leads youth to become involved in violent--you know, in 
violent extremism. There are--I think for as many studies there 
are--just a large diversity of studies and opinions about that.
    And I think that these very--as Dr. Omelicheva said, there 
are--this very punitive approach to counterterrorism/
counterextremism is really one of those factors, because when 
you're the target of criminal prosecution for something that 
is--either excessive criminal prosecution or selective criminal 
prosecution for something that probably shouldn't be a crime--
like possessing a leaflet or being part of an organization that 
is not violent--that is profoundly alienating for you, for your 
family. You become part of--you become, you know, involved in 
the criminal justice system, which is in many of these 
countries very abusive.
    You become vulnerable to torture and other forms of ill 
treatment. Even if you don't go to jail, especially in some of 
these Central Asian countries, you and your family would 
probably have to--once you, you know, get on the radar of the 
anti-extremism police, you know, you become vulnerable to being 
extorted for bribes, very big bribes, that cause a crisis in 
your family. So that is profoundly alienating. And that that 
makes the job of recruiters, for violent--you know, for violent 
extremist groups--it makes their job a lot easier.
    I think another factor that is often cited in these 
studies--and I think is important focus on when you look at the 
causes of--you know, what drives violent, you know, attraction 
to extremism--extremist groups, is the experience of being a 
migrant worker from Central Asia in Russia, right? Studies show 
that it's not so much that Russia has repressive, you know, 
policies on religion--although, in some cases, that may be the 
case, the way--as I said during my testimony--the way that 
these laws are used to oppress certain religious groups 
wrongly.
    But the experience of a migrant worker is profoundly 
alienating for other reasons. It's because they're targeted--
they're targeted by police, you know, for searches, for getting 
extorted for bribes. There's tremendous antipathy and hatred 
and violence--and in the past, violence against migrant workers 
in Russia. And they are--their conditions of work--they're 
exploited quite extensively in many cases by their employers. 
And that's something that our organization has documented. So 
all of--you know, and really humiliating exploitation.
    And so all of these factors combine to make them very 
vulnerable to skilled recruiters. Also, you know, these migrant 
workers and, you know, migrant worker experience shows that 
they--you know, that they--you know, they form networks, 
networks of migrants workers. And so that also makes the job of 
recruiters probably easier.
    Mr. Hudson. How susceptible are these groups to Russian 
propaganda, particularly anti-West? So I guess the point is, 
how concerned should we be that these folks are being 
radicalized, but they're also getting the Russian propaganda 
that the West is the enemy and sort of this anti-West message?
    Ms. Denber. That's a really good question.
    I think that they get--Russian propaganda about the West is 
all over--obviously is all over the region. And I think that in 
the case of these--you know, through--Russian television is 
still widely watched throughout the region. Russian online 
media is popular in many of these places--in many of these 
countries. But I think that, you know, they definitely would 
get a message--an anti-Western message--a very strong anti-
Western, anti-American message through that.
    But also, I think that the--you know, the extremist groups 
that are trying to recruit them already have a very strong 
anti-Western message. So I think that there's a sort of double 
messaging there that has an effect.
    Mr. Hudson. Dr. Carpenter, you've talked some about 
exporting of terrorists, about prior to the Sochi Olympics the 
folks from the Caucasus were sort of helped out of the country, 
maybe given passports in some instances, maybe just assisted. 
But, you know, letting these would-be jihadists potentially 
leave the country.
    Can you confirm that this is a policy of Russia? Is this 
something that's kind of a long-standing practice? And does the 
Kremlin view this policy as being successful, that they've now 
gotten rid of this problem and it's someone else's problem? And 
what impact does this policy have on global terrorist movements 
and on our interests?
    Dr. Carpenter. Well, I don't think, Congressman, it's a 
concerted policy that is written down anywhere. I think a lot 
of Russian counterterrorism policy is very short term in terms 
of its thinking. I think the motivation for this was hosting a 
giant international event with close proximity to the North 
Caucasus and wanting to solve the problem very quickly in the 
runup to that event.
    And we saw massive, by the way, air campaigns as well 
targeting villages in the North Caucasus right up until the 
opening ceremonies. And so Russia was really focused on sort of 
cleaning out that problem, so to speak, in those few months 
before the Olympics. Perhaps realizing some of the possible 
implications, but more likely kicking the can down the road.
    Now, I wouldn't say that this is an across-the-board policy 
that they would implement in every circumstance. And I don't 
even know that it was written down. We do know that there's 
extensive anecdotal and reporting evidence that suggests that 
this was systematic in terms of helping folks that would have--
should have tripped various tripwires in terms of their 
possible belonging to extremist organizations, or having 
extremist views, being given passports and even potentially 
having their travel subsidized to leave the Russian Federation. 
So it was a policy then. Whether it continues, it's hard to 
say. Again, I don't think it's formal. But it was systematic in 
that--in that period of 2013-2014 for sure.
    Mr. Hudson. Appreciate that.
    Dr. Omelicheva, what lessons did the Kremlin learn from 
previous terrorist attacks in Russia, such as the 1999 
apartment bombings in Moscow and other cities, 2002 Moscow 
theater hostage crisis, the 2004 Beslan hostage crisis? How has 
the Kremlin sought to apply those lessons?
    Dr. Omelicheva. So both the Dubrovka Theater crisis of 
2002, and of course September 1st crisis in Beslan in 2004, are 
known as 9/11 in Russia. And for those of you who are not 
familiar with, you know, the atrocities, in the first instance 
in the hostage-taking crisis in the Dubrovka Theater in October 
2002, the terrorists took 800 theater viewers in the audience 
hostages. And as a result of the rescue operation, over 130 of 
them died.
    In the case of Beslan, the terrorists took 1,100 hostages, 
mostly children. And then as a result of a rescue operation, 
which was provoked by a couple of explosions, as you may 
recall, one of those explosions broke a roof in the building 
that killed a lot of hostages to begin with. And it was 
interpreted as a kind of full signal for fleeing. The operation 
was complicated by the presence of the locals. Many of them 
were armed, and all of them had one or more hostages in the 
school. So there was a lot of, you know, firing that was not 
done by the special operation forces, which were practicing the 
retaking of the school close by, outside of the town itself. 
But as a result of this operation, we had 300-plus people died, 
mostly children.
    And there was even lesson between 2002 and 2004. So in 
2002, many analysts blamed the government for acting too soon. 
But I think the government was also informed by the way the 
Yeltsin government prior responded to a number of hostage-
taking operations in 1995 and 1996--Kizlyar, Budyonnovsk, other 
places that also resulted in lots of casualties. But the 
president interfered, top officials interfered in those rescue 
operations. And in the end, the government acquiesced in, 
during the negotiations, letting the terrorists go. And as a 
result, these same fighters later on committed other types of 
terrorist attacks.
    So those experiences informed the Russian Government's 
responses to 2002 and 2004 incidents, in that President Putin 
and other top officials, they did not interfere, letting other 
counterterrorism specialists to be in charge. But in 2002, 
during the Dubrovka Theater terrorist attack, the special 
forces acted prematurely. Many believe that they did not 
exhaust all of the nonpunitive, nonmilitary means during the 
negotiations with terrorism.
    What the government learned was that in both instances that 
they need to be able to secure the perimeter of the 
counterterrorism operation, because in both instances--in one, 
media interfered with the government's ability to act secretly, 
because some of the hostages shared information about 
government action with the media, and it was broadcasted, and 
the terrorists learned about some of the actions and acted in 
anticipation of those. In the second instance, in 2004, you 
know, the participation of locals armed with light weapons also 
interfered with the success of the operation.
    So the key lesson that the government learned was that they 
have to have sufficient force to secure the perimeter of the 
counterterrorism operation, that they need to be able to 
constrain the freedom of movement, the freedom of mass media, 
and other types of freedom. And I mentioned that 2006 law on 
Counteractions for Terrorism that integrated all of these 
lessons, providing legal basis for this counterterrorism 
operation mandate, you know, counterterrorism headquarters, and 
all of the constraints that can be imposed on the freedom of 
movement, the freedom of media, and many others.
    So with your permission, if I may, I had a couple of things 
to the previous speakers in response to your questions on 
fighters in Central Asia, as well as Russia's policy to help 
the militants from North Caucasus to leave Russia, if you're 
okay with that.
    Mr. Hudson. Sure.
    Dr. Omelicheva. So you know, it is true that it was not 
Russia's policy, but it was very well thought out and 
orchestrated. This so-called green corridor was open as early 
as 2011 when, at that point, ISIL renewed its attacks in Iraq. 
This is when the first loads of militants from North Caucasus 
began departing the region, supported by the FSB agents buying 
them the tickets and whatnot. And it lasted all the way through 
2014 or 2015, when the green corridor was closed, but the 
Russians kept the list of those who departed. And the Center 
for International and Strategic Studies evaluates that the 
number of those who left from Russia to Turkey can be as high 
as 11,000 individuals. And at least 6,000 of those made their 
way to Syria.
    I do want to, you know, acknowledge how broad our 
understanding of foreign fighter is. That, you know, some of 
those foreign fighters are, indeed, the religious zealots who 
go to foreign countries to fight for religious ideals. But 
there are also many of those who are religiously ignorant, and 
they just kind of buy out of the religious ideology of violence 
because they are desperate, because they don't have any other 
way out. And when they go there, especially if they are 
assisted by, you know, the FSB, they become quickly 
disillusioned and would like to return.
    And there is a very large category of those who are forced 
to leave, or they are deceived or trafficked. You know, some of 
my research looks at terrorism and human trafficking. And there 
are a lot of people who are trafficked based on deception, or 
they are forced to live as wives, brides-to-be, or relatives of 
the fighters. So by different estimates right now, we have 700 
or so Russian citizens, women and children, in prisons in Iraq. 
And so some of the things that Russian Government has been 
trying to figure out what to do with, how to repatriate 
children, because up until 2017 Vladimir Putin and Kadyrov, the 
infamous ruler of Chechnya, they tried to bring in both the 
mothers and the children.
    Their fortunes varied. You know, the Dagestan courts 
imprisoned many of those. The Chechen courts, they kept them 
out of prison and did some--put some effort into repatriating 
them into the local communities----
    Mr. Hudson. Well, if I could ask you, of those 700 
imprisoned in Iraq, do they pose a terrorist threat or are they 
victims? Or both?
    Dr. Omelicheva. So the Russian intelligence--so the reason 
the Russian intelligence stopped repatriating women because 
there was suspicions raised that at least some of them may pose 
a threat. So I would say--and this is the danger, because we 
cannot establish motivation with certainty. And many of them 
are trained to say, you know, what the law enforcement 
officials want to hear. But the Russians stopped bringing the 
women back. But they continue trying to repatriate the 
children.
    But, because, again, of these complexity, and so many 
categories that exist out there under the umbrella of foreign 
fighters, I think caution has to be used, but we also need to 
be aware that those children are not going to go anywhere, and 
we should worry about who are they going to become, and kind of 
that forward-looking focus, especially on the children who 
probably know nothing but, you know, the war and violence.
    Mr. Hudson. All right. Well, I appreciate those thoughts, 
and I can tell you, today has been really illuminating for me. 
I really appreciate the perspective. One of the things that 
struck me early was civil society--the reason Russia is against 
it is because they see it as Western influence. I'd never quite 
made that connection.
    Ms. Denber, you were talking about inconvenient people--you 
know, that's sort of the view of terrorism. Counterterrorism is 
inconvenient people--that was--I really appreciate that.
    And obviously, Dr. Carpenter, you know, this concept that 
Russia approaches CT as a counterintelligence exercise and they 
sort of see it through that lens, those are all just a few of 
the things that were very illuminating to me today. And I 
really appreciate you taking the time, appreciate your written 
testimonies as well, which we've all studied.
    This is important work. And you are informing us and 
helping us at the OSCE to do a better job from this perspective 
in dealing with Russia on the counterterrorism issue. And 
certainly being on the ad hoc Committee on Counterterrorism as 
a vice chair, this is really helpful to me.
    So thank you for your time today. Thank you for your 
excellent testimony. And with that, we will adjourn. [Sounds 
gavel.]
    [Whereupon, at 11:51 a.m., the hearing ended.]

=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


Prepared Statement of Hon. Richard Hudson, Commissioner, Commission on 
                   Security and Cooperation in Europe

    On behalf of Chairman Alcee Hastings and Co-Chairman Roger 
Wicker, I'd like to call this hearing of the U.S. Helsinki 
Commission to order.
    Let me thank the distinguished panelists who have agreed to 
join us to offer their expertise and help inform our work. I 
will introduce them in a moment, but before I do, I will offer 
a few thoughts on the topic of this hearing.
    We convened this hearing to examine the Kremlin's 
counterterrorism policies and practices. We want to better 
understand what those practices are; how they developed over 
time; whether they are effective; and to what extent they 
dovetail, or not, with U.S. interests.
    I want to offer a couple of illustrations of why it is so 
important that we maintain a clear sense of what Russian 
counter-terrorism practices do and do not offer:
    The first reason is that Russia seeks to claim the mantle 
of leadership on this issue internationally.
    I'd like to quote from the Worldwide Threat Assessment of 
the U.S. Intelligence Community, provided to Congress on 
January 29 of this year. That document includes the following 
passage:

        ``China and Russia are expanding cooperation with each 
        other and through international bodies to shape global 
        rules and standards to their benefit and present a 
        counterweight to the United States and other Western 
        countries . . .
        Russia is working to consolidate the UN's 
        counterterrorism structures under the UN Under 
        Secretary General for Counterterrorism, who is Russian.
         . . . Both countries probably will use the UN as a 
        platform to emphasize sovereignty narratives that 
        reflect their interests and redirect discussions away 
        from human rights, democracy, and good governance.''

    So I would ask the panelists: should we be comfortable with 
Russian leadership in this area? Does the Kremlin have so-
called ``best practices'' to share?
    A second reason we should care about Russia's 
counterterrorism practices is that Russia's actions in this 
space have impact far beyond Russia's borders.
    As regional experts recently told a Helsinki Commission 
briefing, Russia's significant influence in Central Asia can be 
deeply problematic, through cooperation on repressive measures 
between security services or by the propagation of 
disinformation. In addition, as one panelist put it, ``Russia. 
is a particularly nefarious influence within the sphere of 
religious affairs across the region''--by painting peaceful 
religious groups with the label of ``extremism'' and repressing 
them ruthlessly, potentially furthering radicalization in the 
process.
    I'm grateful to the panelists who are with us today, and 
I'd like to introduce them now.
    We will first hear from Dr. Mariya Y. Omelicheva, Professor 
of Strategy at the United States National War College at the 
National Defense University. Dr. Omelicheva received her PhD 
from Purdue University, and also holds a JD in International 
Law from Moscow National Law Academy. She is the author of 
numerous well-received research articles and volumes related to 
our hearing today.
    Next, we will hear from Rachel Denber, Deputy Director of 
the Europe and Central Asia Division at Human Rights Watch. Ms. 
Denber previously directed the Human Rights Watch's Moscow 
Office and has authored reports on a wide range of human rights 
issues throughout the region. Thank you for being with us in 
Washington for this hearing, Ms. Denber.
    Finally, we will hear from Dr. Michael Carpenter, Senior 
Director, Penn Biden Center for Diplomacy and Global 
Engagement. Dr. Carpenter has worked these issues as a senior 
official in the prior administration, as former U.S. Deputy 
Assistant Secretary of Defense for Russia, and as a former 
National Security Council Director for Russia. This is not Dr. 
Carpenter's first appearance before the Helsinki Commission; 
and, I suspect, given the quality of his contributions, I 
suspect it is not the last time we will call on his expertise. 
Thank you for being here.
    Lastly, I would like to thank Chairman Hastings for 
allowing me the opportunity to convene this hearing on behalf 
of the Commission.
    As many of you know, as a member of the United States 
Helsinki Commission, I have focused my engagement in a number 
of areas, including combatting religious persecution and anti-
Semitism, preventing human trafficking, and promoting economic 
cooperation and free speech.
    As part of my role as a Helsinki Commissioner, I am 
regularly called upon to represent the United States at the 
OSCE Parliamentary Assembly, which facilitates inter-
parliamentary dialogue among the 57 participating States.
    This Assembly is a valuable forum where my Congressional 
colleagues and our counterparts from countries ranging from 
Canada to Russia get together to have frank discussions about 
the issues of the day and try to find common solutions that 
benefit all of our citizens.
    In recent years, I have been really pleased to see that the 
Assembly been paying increasing attention to the issue of 
tackling terrorism.
    In July 2017, the Assembly created an Ad Hoc Committee on 
Countering Terrorism. As Vice-Chair of that Committee, I am in 
regular dialogue with colleagues, including from Russia, on the 
very questions we will be examining today. And so I am 
particularly grateful for the information we will receive from 
our panelists.

    Prepared Statement of Hon. Benjamin L. Cardin, Ranking Member, 
            Commission on Security and Cooperation in Europe

    Mr. Hudson, thank you for the opportunity to say a few 
words. I would like to begin by thanking the Commission's 
Chairman, Alcee Hastings, for placing this important hearing on 
our calendar.
    Mr. Hudson, I would also like to thank you for taking up 
the gavel for this particular hearing, as well as for your 
important engagement with the OSCE Parliamentary Assembly. 
Members of Congress have an important opportunity to shape 
international debate through our work with the Assembly. Your 
service as a Vice-Chair of the Parliamentary Assembly's 
Counter-Terrorism Committee is a great example of the impact we 
can and should be having through that important body.
    In January 2018, the Senate Foreign Relations Committee 
staff released a report I had commissioned, titled ``Putin's 
Asymmetrical Assault on Democracy in Russia and Europe: 
Implications for U.S. National Security.''
    Among its many findings, that report outlined how Vladimir 
Putin gained and solidified power by exploiting fears of 
terrorism, empowering the State security services and employing 
them to consolidate his hold on the levers of political, 
social, and economic power.
    Our report showed how Putin's manipulation of this threat 
began even in his earliest days at the summit of Russian 
politics. In 1999, Putin had been installed as prime minister, 
but his ascension to the presidency of Russia to succeed Boris 
Yeltsin was anything but certain. Then, in September, several 
bombs tragically killed hundreds of people as they slept in 
their apartments in Moscow and other Russian cities. Despite 
the absence of any evidence linking the bombings to Chechen 
terrorists, Putin seized this opportunity to launch a brutal 
war in Chechnya; his popularity soared, assuring his election 
as President.
    Putin has also used counter-terrorism as a pretext to 
centralize institutional power in Moscow. For instance, in 
2004, claiming a supposed need for ``national cohesion'' after 
the horrific Beslan terrorist attack at a school in North 
Ossetia, he dispensed with the election of regional Governors 
by popular vote; they would be centrally appointed instead.
    Finally, the SFRC report underscored how counterterrorism 
has been used to pressure groups and individuals throughout 
society whose views Putin might find distasteful.
    Criminal prosecutions under the flimsiest of counter-
terrorism charges have been used to silence activists and 
Kremlin critics.
    For example, in August 2015, Oleg Sentsov, a Ukranian 
filmmaker, was convicted of a range of terrorism-related 
charges and sentenced to 20 years imprisonment. His offense? 
Peacefully protesting against the illegal and unrecognized 
Russian annexation of his native land.
    In December 2016, blogger Alexey Kungurov was convicted of 
inciting terrorism after criticizing Russian military actions 
in Syria. He was sentenced to 2 years in a penal colony.
    The religious sector has not been spared this deliberate 
malpractice: the 2016 ``Yarovaya'' package of counterterrorism 
laws, for example, imposed cumbersome registration processes 
and administrative constraints, restrictions on proselytizing, 
and expanded surveillance on non-Russian Orthodox religious 
entities.
    Mr. Chairman, the above examples testify to the misuse of 
the counterterrorism effort by the Putin regime at home.
    I could also go on at some length about the international 
engagements by the Kremlin that cause me equally great concern: 
from the serial violations of human rights by Russian forces in 
Ukraine to the Kremlin's direct support for the regime in Syria 
which is targeting civilians with chemical weapons; from 
military invasions of Georgia and Ukraine to the assassinations 
of political enemies both at home and abroad. These are simply 
not the actions of a trustworthy partner with whom we share a 
common vision.
    Mr. Chairman, without a doubt, addressing the challenge of 
terrorism in our societies will require deep and sustained 
international cooperation to address effectively. However, the 
Putin regime's troubling track record on what it calls 
``counterterrorism'' undercuts any claim the Kremlin might make 
on international leadership in this area. And it means that any 
engagement by our government with the Kremlin on this issue 
must be undertaken with clear eyes and firm convictions.
    Thank you, Mr. Chairman, and thank you to all of our 
witnesses for being here today.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                               [all]

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe [OSCE].

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
